SAR COVERS 1 AND 4.qxd   10/27/11   9:43 AM   Page 1
SAR COVERS 1 AND 4.qxd   10/27/11   9:43 AM   Page 2
This page intentionally left blank.
                             SEMIANNUAL
                            REPORT TO CONGRESS




Table of Contents

Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . 2


Key Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Implementation of the American Recovery and

Reinvestment Act of 2009 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


Other Significant Audits, Inspections, and Reviews . . . . . . . . . . . . 18


Investigative Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


Positive Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

        Highlights Based on Office of Inspector General Work . . . . . . . . . . . . . . . 29

        Congressional Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

        Legislative and Regulatory Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

        Hotline System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

        Management Referral System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

        Qui Tams . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32


Appendix 1 – Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

        Recovery Act and Recovery Act-Related Reports Issued . . . . . . . . . . . . . . . 33

        Other Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36

        Inspection Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37


Appendix 2 - Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

        Audit and Inspection Reports with Recommendations

        for Better Use of Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

        Audit and Inspection Reports with Questioned Costs . . . . . . . . . . . . . . . . . 39

        Reports Lacking Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

        Prior Significant Recommendations Not Implemented . . . . . . . . . . . . . . . . 40

        Summary of Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

        Summary of Investigative Activities (con’t) – Hotline Activity . . . . . . . . . . 42

        Summary of Recovery Act Section 1553 Retaliation Complaints . . . . . . . . 42

        Peer Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43





                                                 APRIL 1, 2011 – SEPTEMBER 30, 2011                              1
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Message from the Inspector General 


                                         The Department of Energy’s Office of Inspector General is pleased
                                         to submit its Semiannual Report to Congress for the period ending
                                         September 30, 2011. This report highlights key accomplishments
                                         of the Office of Inspector General particularly pertaining to our
                                         efforts to work with management to ensure the efficiency and
                                         effectiveness of Department of Energy operations.

                                          Similar to reporting periods of the recent past, a significant portion
                                          of our oversight efforts centered on the Department’s
                                          implementation and execution of the American Recovery and
                                          Reinvestment Act of 2009 (Recovery Act). In this regard, we
                                          established proactive efforts to evaluate internal control structures
                                          of Recovery Act programs; worked to ensure that such programs
were periodically reviewed to determine if they were meeting established objectives; developed strategies for
preventing and detecting possible unlawful acts associated with Recovery Act funds; and, we implemented
special programs called for in the Recovery Act to protect whistleblowers who feel they have been retaliated
against for disclosures of alleged fraud, waste, or abuse. During this reporting period, we specifically
completed a number of reviews relating to the Department’s efforts under the Weatherization Assistance
Program. Intended to improve the energy efficiency of low income residences, the Program received
$5 billion under the Recovery Act. Taken as a whole, Office of Inspector General reviews identified
concerns pertaining to eligibility requirements, proper documentation, quality issues, and
insufficient oversight and management. Results of these reviews are summarized in
the opening pages of this report.

Although a major focus of our work during this reporting period has centered
on the Recovery Act, the Office of Inspector General continues its efforts in
other vital Department sectors, including environmental remediation,
stockpile stewardship, worker and community safety, cyber security, and
various aspects of contract and program management.

Much work has been done, but more remains and we look forward to working with
program officials and Department management in our mutual effort to ensure that the
interests of U.S. taxpayers are a priority as the Department of Energy undertakes its critically
important mission.




                                                        Gregory H. Friedman
                                                        Inspector General



  2     OFFICE OF INSPECTOR GENERAL
                             SEMIANNUAL
                             REPORT TO CONGRESS




      Key Accomplishments
      For the Period of April 1, 2011 – September 30, 2011


Total Reports Issued:                                                            39
      Recovery Act and Recovery Act-Related Reports                              24
      Other Audit Reports                                                         9
      Other Inspection Reports                                                    6

Funds Put to Better Use                                               $ 2.0 million

Questioned Costs                                                      $ 1.5 million

Dollars Recovered (Fines, Settlements, and Recoveries)                $ 72.2 million

Criminal Convictions                                                             28

Suspensions and Debarments                                                       42

Potential Recoveries from 14 Open False
Claims Act Investigations                                            $ 254.3 million

Civil and Administrative Actions                                                 91

Hotline Complaints and Inquiries
     Received                                                                 3,712
     Resolved Immediately/Redirected/No Further Action                        3,387
     Processed for Further Review and Adjudication                              342

Recovery Act Whistleblower Complaints and Inquiries Received                      4




                                            APRIL 1, 2011 – SEPTEMBER 30, 2011    3
                                             SEMIANNUAL
                                             REPORT TO CONGRESS



                     Implementation of the American
                     Recovery and Reinvestment
                     Act of 2009
 Reports

The Department of Energy’s (DOE) Weatherization Assistance
Program (Weatherization Program) Funded under the Recovery Act
for the State of Wisconsin

The Department’s Weatherization Program received $5 billion under the Recovery Act to improve the
energy efficiency of residences owned or occupied by low income persons. Of this amount, the
Department awarded a 3-year Weatherization Program grant for $141.5 million to the State of Wisconsin.
Wisconsin's Department of Administration, Division of Energy Services, administered its Weatherization
Program through 20 local agencies. These agencies are responsible for evaluating the energy efficiency of
homes, performing weatherization work, and conducting inspections.

Our review identified opportunities to improve Wisconsin's Weatherization Program in the areas of
retaining documentation of applicant eligibility for weatherization services and maintaining separate
accounting for Recovery Act spending. The Department and Wisconsin concurred with the findings and
recommendations contained in our audit report. We considered management's actions with regard to our
recommendations to be responsive. (OAS-RA-11-07)


The Department’s Weatherization Program Funded under the
Recovery Act for the State of Indiana
The Department awarded the State of Indiana a 3-year Weatherization Program grant of $131.8 million,
representing a ten-fold increase over the $12.3 million in funds available to Indiana for weatherization in
Fiscal Year (FY) 2009.

The Indiana Housing and Community Development Authority (IHCDA) administered the Weatherization
Program grant through 31 local entities, including local agencies, nonprofit organizations, and units of local
government. The largest Weatherization grant, almost $42 million or roughly a third of Indiana’s Recovery
Act funding, was provided to Indiana Builders Association (IBA), a nonprofit organization.

Our review did not reveal material problems with Indiana’s management of its Weatherization Program.
We did, however, identify opportunities for Indiana and IBA to improve the efficiency and effectiveness of
their Weatherization Programs. Specifically, we found that IBA had not always maintained documentation
to support weatherization material costs reimbursed by Indiana, even though it was specifically required to


 4     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




do so. Also IBA had not taken action to ensure that dwellings had been disqualified from receiving
Recovery Act-funded services because they had received weatherization services in the past. Payments were
made without necessary supporting information because IHCDA had not enforced policies and regulations
that require adequate documentation to support contractor billings. Also, the information needed to
enforce the Recovery Act requirement was limited because IHCDA's database included only homes
weatherized after 2000, and weatherization auditors employed by IBA did not take action to verify the
source of any previous weatherization work performed on homes they assessed. The Department concurred
with the findings and recommendations and committed to take corrective action. (OAS-RA-11-13)


The Department’s Weatherization Program Funded under the
Recovery Act for the State of Missouri

The State of Missouri was awarded a 3-year Recovery Act Weatherization Program grant of $128 million, a
significant increase over the $9 million authorized in 2009. While Missouri made significant progress in
implementing its Recovery Act-funded Weatherization Program, our audit revealed problems in the areas of
weatherization workmanship, final inspections, follow-up on inspection results, training and purchases of
excess vehicles. Weatherization work quality problems resulted from a combination of program weaknesses
including inadequate final inspections conducted by local agencies, ineffective follow-up on systemic issues
identified in re-inspections, and incomplete training of local agency and contractor personnel. Missouri
had taken steps to safeguard Recovery Act funds by improving its oversight of the local agencies.

However, absent an increased focus on correcting systemic issues, quality issues are likely to continue. The
Department concurred with our recommendations and provided an action plan for implementing them.
Missouri shared our concern with respect to workmanship issues and noted that to address these issues, it
had (1) increased monitoring of its local agencies; (2) provided additional training; and, (3) identified
recurring issues and shared best practices to address them. The local agencies' comments generally affirmed
our findings and were responsive to our recommendations. (OAS-RA-11-12)


The Department’s Weatherization Program Funded under the
Recovery Act for the State of Tennessee

The Department awarded a 3-year Recovery Act Weatherization Program grant of $99 million to the State of
Tennessee, a significant increase over the $8.9 million received in 2009. Tennessee's Department of Human
Services administers its Weatherization Program grant through 18 local agencies. Officials reported that
Tennessee had, by September 2010, achieved its Recovery Act goal of weatherizing more than 10,500 homes.

We found that Tennessee, while achieving its production goals, had not always ensured that its
Weatherization Program was managed efficiently and effectively. For instance, although prohibited by
Tennessee and Federal directives, we found that local agency contractors installed weatherization items that

             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2011 – SEPTEMBER 30, 2011            5
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




may not have been cost-effective. Consequently, we questioned about $100,000 claimed for those items.
We also observed recurring problems with the quality of weatherization work across Tennessee. These
problems occurred due to a combination of program weaknesses, including personnel who were unfamiliar
with the analytical tools used to demonstrate cost-effectiveness of weatherization measures, inadequate local
agency final inspections, and the lack of adequate controls over work change orders in Tennessee.
Department officials concurred with our recommendations and provided an action plan for implementing
them. Tennessee officials stated that they will ensure that sub-recipients install only items that are allowable
and cost-effective. The local agencies' comments generally affirmed our findings and were responsive to our
recommendations. (OAS-RA-11-17)


The Department’s Weatherization Program Funded under the
Recovery Act for the Commonwealth of Virginia

In 2009, the Commonwealth of Virginia's (Virginia) Department of Housing and Community
Development's (DHCD) Weatherization Program was awarded a 3-year grant of approximately $94 million
from the Recovery Act to weatherize 9,193 homes. Subsequent to issuing an interim report, we completed
work at three of Virginia's local agencies to evaluate their success in carrying out the Recovery Act-funded
Weatherization Program. Specifically, we performed reviews at Crater District Area Agency on Aging
(Crater), Community Housing Partners Corporation (CHPC), and Rappahannock Area Agency.

Our testing of local agencies' weatherization activities performed during the period from February 2009 to
March 2010 revealed that CHPC and Crater had not always developed or maintained support for costs
billed to and reimbursed by the Virginia Weatherization Program. As such, we questioned about
$1.2 million in costs incurred by these agencies. Also, Crater provided weatherization services to a number
of ineligible applicants or dwellings. Further, neither CHPC nor Crater always performed required
inspections of completed units, and Crater had not always ensured workers were paid Recovery Act-
mandated Davis-Bacon Act wage rates. These weaknesses were not initially detected or corrected because
Virginia's DHCD had not implemented the financial and reporting controls needed to ensure
Weatherization Program funds were spent effectively and efficiently. In response to the May 2010
preliminary report, both the Department and Virginia indicated that corrective actions were in process.

We concluded that the Department and DHCD had made significant progress in improving management
controls over Virginia’s Weatherization Program. The Department stated that it would closely monitor
Virginia's Weatherization Program to ensure that the Program is operating effectively and efficiently.
(OAS-RA-11-14)




  6     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




The Department’s Weatherization Program Funded under the
Recovery Act for the State of West Virginia

The Department awarded a 3-year Recovery Act Weatherization Program grant of almost $38 million to
the State of West Virginia. The West Virginia Governor's Office of Economic Opportunity administers the
Recovery Act grant through 12 local community action agencies. These agencies are responsible for
determining applicant eligibility, assessing and weatherizing homes, and conducting home inspections.
We determined that West Virginia had not always managed its Weatherization Program efficiently and
effectively, nor had it always ensured compliance with applicable laws and regulations. We found problems
in the areas of weatherization workmanship, financial management, prioritization of applicants for
weatherization services, and compliance with laws and regulations.

The Department and West Virginia concurred with the recommendations and have committed to the
implementation of an extensive corrective action plan. Additionally, two of the three local agencies that we
reviewed during the audit generally concurred with the recommendations. The third local agency included
in the audit indicated that it would work with West Virginia to develop solutions to the areas identified.
Management's actions, both planned and completed, are responsive to our recommendations.
(OAS-RA-11-09)


People’s Equal Action and Community Effort, Inc. – Weatherization
Program Funded under the Recovery Act

The Department awarded the largest Recovery Act Weatherization Program grant of $394.6 million to New
York. New York awarded two Recovery Act contracts to People’s Equal Action and Community Effort, Inc.
(PEACE) - $9.6 million to weatherize 1,357 homes and a separate contract of $4 million for multi-family
projects.

The examination found that PEACE had not developed and maintained a list of previously weatherized
multi-family projects or information from New York to determine the eligibility of proposed projects for
Recovery Act Weatherization Program services. In addition, PEACE had not properly identified and
separately accounted for over $3,000 in interest earned on the Weatherization Program cash advance it
received from the Department and, therefore, had not returned the interest earned to the U.S. Department
of Treasury as required. Further, because of deficiencies identified, PEACE had not performed post-
inspections on all units that received additional weatherization services. PEACE also had not maintained a
list of all weatherization items installed, thereby precluding the occupant from certifying the work that was
completed. The Department and New York generally concurred with the recommendations to PEACE for
improving its administration of its Weatherization Program. PEACE also generally concurred with the
recommendations and provided responses planned and ongoing actions to address issues identified.
(OAS-RA-11-20)


             Public reports are available in full text on our website at www.ig.energy.gov



                                                             APRIL 1, 2011 – SEPTEMBER 30, 2011            7
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




Action for a Better Community, Inc. – Weatherization Program
Funded under the Recovery Act

Action for a Better Community, Inc. (ABC), is a not-for-profit organization that has implemented a
multitude of Federal and State programs using public sector funds. New York allocated ABC about
$7.4 million, from its Department-awarded $394.6 million Recovery Act Weatherization Program grant,
to weatherize a total of 1,037 homes.

The examination found that ABC had not performed adequate weatherization services on five of the nine
single-family homes selected for review nor ensured compliance with New York policies and procedures
related to purchasing. In addition, ABC had not deposited or maintained advance funding received from
the Department in an interest-bearing account, as required by Federal regulation, and had not maintained
adequate segregation of duties in the process for determining owner/occupant eligibility for receiving
weatherization services. Further, ABC had not maintained documentation ensuring that homes selected
had not been previously weatherized with Department funds, and supporting the authorization and
approval of reimbursements. The Department and New York generally concurred with the
recommendations to ABC for improving its administration of its Weatherization Program. ABC also
generally concurred with the recommendations and provided responsive planned and ongoing actions to
address issues identified. (OAS-RA-11-21)


Community Action Partnership of the Greater Dayton Area –
Weatherization Program Funded under the Recovery Act

The Department awarded a 3-year Recovery Act Weatherization Program grant of $267 million to the State
of Ohio. Ohio allocated about $18 million to the Community Action Partnership of the Greater Dayton
Area (Dayton). Dayton's grant was to be expended from April 1, 2009, through March 31, 2012, with the
goal to weatherize approximately 2,144 homes.

The examination found that Dayton procured weatherization materials, equipment, and services without
evidence of a cost or price analysis or competitive bidding; and had a significant percentage of homes
requiring re-work prior to completion. Thus, $70,800 in costs was questioned associated with the
procurements. In addition, Dayton did not ensure that administrative employees' timecards reflected actual
work activity and contained employee or supervisor approval signatures. Consequently, $23,400 of costs
was questioned. Further, Dayton did not track and document the number of homeowners that received
follow-up contact after weatherization services were provided; and failed to summarize the results of its
follow-up program as required by Ohio. The Department and Ohio concurred with the recommendations
to Dayton for improving its administration of its Weatherization Program. Dayton expressed agreement
with the recommendations and provided planned and ongoing actions to address issues identified.
(OAS-RA-11-18)




 8     OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Cuyahoga County of Ohio Department of Development –
Weatherization Program Funded under the Recovery Act

Ohio allocated $9.4 million, from its Department-awarded $267 million Recovery Act Weatherization
Program Grant, to Cuyahoga County of the Ohio Department of Development (County), located in
Cleveland. The County's grant was to be expended over a 3-year period from April 1, 2009, through
March 31, 2012, with the goal to weatherize approximately 1,121 homes.

The examination found that the County may have approved applicants for weatherization services based on
outdated income information and did not reimburse interest earned on cash advances in a timely manner.
In addition, the County had a significant percentage of homes requiring re-work prior to completion.
Further, the County did not verify the number of work hours reported to Ohio by one contractor or verify
that it had paid wages in accordance with Davis-Bacon Act requirements. The Department and Ohio
concurred with the recommendations to the County for improving its administration of its Weatherization
Program. The County expressed agreement with the recommendations and provided planned and ongoing
actions to address issues identified. (OAS-RA-11-19)


California State Energy Program Funded under the Recovery Act

The Department's Office of Energy Efficiency and Renewable Energy (EERE) provides grants to states,
territories and the District of Columbia through the State Energy Program (SEP). The California Energy
Commission (Commission) received a SEP Recovery Act grant of $226.1 million. The Commission
planned to use $193 million of these funds, to provide energy efficiency retrofits for 29,000 residential and
5,500 commercial buildings and to create 2,100 jobs.

We found that the Commission experienced delays in executing its plan to spend SEP Recovery Act funds.
In fact, as of June 2, 2011, 2 years after SEP funds became available in June 2009, California had spent
only $68 million of its $226.1 million award. Further, although the Commission had made progress in
resolving weaknesses revealed by several SEP specific audits, it had not completed all necessary actions to
monitor sub-recipients of SEP funds. Finally, we determined that EERE had not effectively monitored the
Commission's actions to correct previously discovered program weaknesses. Numerous factors contributed
to delays the Commission experienced in its implementation of its energy efficiency building retrofit
projects. Initially, the Commission planned to award building retrofit loans and contracts by February 1,
2010, however, delays occurred as the Commission worked to comply with Recovery Act specific
requirements. Regulator concerns and lawsuits also delayed the Commission's plans to offer incentives to
retrofit residential and commercial buildings. EERE management concurred with the findings and
recommendations and stated that they will continue to closely oversee the work carried out under the
California SEP by continuing to conduct regular onsite visits in addition to communicating frequently.
(OAS-RA-11-10)



             Public reports are available in full text on our website at www.ig.energy.gov



                                                            APRIL 1, 2011 – SEPTEMBER 30, 2011           9
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




New Jersey State Energy Program Funded under the Recovery Act

The State of New Jersey's Board of Public Utilities (BPU) was assigned responsibility for New Jersey's SEP.
BPU received $73.6 million of SEP Recovery Act funds. We found that New Jersey had developed and
implemented a monitoring and tracking system designed to ensure that Recovery Act funding was
accounted for and properly tracked. New Jersey had also hired additional staff to assist in handling the
significant workload increase associated with the huge influx of Recovery Act funding. However, we found
that New Jersey had not made significant progress in expending Recovery Act SEP funds. Delays associated
with complying with various regulatory requirements and procedural issues have adversely affected New
Jersey’s ability to meet the Recovery Act goal of targeting projects that can be started expeditiously.

Because of the delay in starting projects, we suggested that the Department and New Jersey closely monitor
SEP spending in order to meet Recovery Act goals and ensure that all funds are expended by Department
deadlines. (OAS-RA-L-11-07)


Department's Management of Cloud Computing Services

Cloud computing enables convenient, on-demand access to shared computing resources that can be rapidly
provided to users. As part of the Office of Management and Budget's 25 Point Implementation Plan to
Reform Federal Information Technology Management, each agency was required to identify at least three cloud
computing uses within its organization, of which one must be implemented by December 2011.

Our review did not reveal material issues with the Department's limited use of cloud computing services.
However, we identified areas that the Department should consider before it moves forward with adopting
such technology on a large scale. For instance, we noted several opportunities for improvement in the
Department's cloud computing initiative. In addition, we determined that certain areas related to the
management of the Magellan Project could be enhanced. Our report contains a number of suggested actions
to improve the management of the use of cloud computing services and resources. (OAS-RA-L-11-06)


Planned Actions Related to the National Energy Technology
Laboratory's (NETL) Simulation-Based Engineering User Center

The Department's NETL initiated plans to utilize $20 million of the Recovery Act funds to develop the
Simulation-Based Engineering User Center (User Center) – part of the Carbon Capture Simulation
Initiative program. In March 2011, NETL was given final approval for the project from the Department's
Chief Information Officer.

Our review identified that the plan to acquire and install a Performance Optimized Data Center (POD) at
a cost of $3 million may not be the least costly available option. We noted that over 3,000 square feet, or
about 70 percent, of NETL's existing data center was unutilized. However, despite this fact, project
documentation submitted to the Chief Information Officer indicated NETL's intent to acquire additional


 10    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




capacity to support the User Center initiative. The project plans noted that the POD was necessary since
this unutilized space was earmarked for other initiatives; however, officials told us that they were unaware of
any such initiatives or were unable to provide details to support any intended future use. In addition, the
project plan included costs within the existing data center option that should not have been included and
did not include a detailed analysis of the costs associated with expanding the data center's power and
cooling capacity. Further, a lack of coordination existed among NETL personnel responsible for data center
operations, facilities, and the proposed User Center.

We recommended that the Acting Assistant Secretary for Fossil Energy require the Director, NETL, to fully
analyze future data center needs and the costs and benefits of utilizing existing space in the Morgantown
data center. In addition, management should ensure costs and assumptions are consistent across all
alternatives prior to continuing plans for acquisition of the POD. Further, management should coordinate
efforts among all affected NETL parties, including the Office of Research and Development, the
Information Technology Division, and the Site Operations Division, when analyzing User Center
alternatives. Management concurred with the report's recommendations. (OAS-RA-11-08)


Use of Recovery Act Funds on Solid Waste Project Activities at the
Department's Hanford Site

The Department’s Richland Operations Office (Richland) awarded a contract to CH2M HILL Plateau
Remediation Company (CHPRC) to remediate Hanford Site's (Hanford) Central Plateau. The
Department allocated $315 million in Recovery Act funds to support Hanford's Solid Waste Project under
the CHPRC contract. Performance metrics were established to measure actual work accomplished and to
determine if Recovery Act goals for the Solid Waste Project were met.

We determined that although the Department had met its goal to retrieve remote-handled transuranic
(TRU) waste, and is on track to meet its goals for TRU waste repackaging and contact-handled TRU waste
disposal, it is behind schedule for contact-handled TRU waste retrieval and mixed low level waste shipping.
In particular, CHPRC:
   ■	   Is behind schedule to meet the goal of retrieving 2,500 cubic meters of contact-handled TRU waste
        by September 30, 2011.
   ■	   May not be able to meet the goal of shipping 1,800 cubic meters of mixed low-level waste by

        September 30, 2011. 


According to management officials, Richland has implemented procedures to bring the contact-handled
waste retrieval back on schedule, including adjusting procedures for handling TRU waste and evaluating
various options, such as using an off-site treatment facility to repackage the waste into standard waste boxes.
We believe that the Department's planned actions, if successfully implemented, should help mitigate the
issues we identified. (OAS-RA-L-11-08)


              Public reports are available in full text on our website at www.ig.energy.gov



                                                            APRIL 1, 2011 – SEPTEMBER 30, 2011          11
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




Recovery Act Funds at the Waste Isolation Pilot Plant

The Carlsbad Field Office (Carlsbad) was allocated $172.4 million under the Recovery Act to accelerate the
Department's TRU waste disposal goals. Carlsbad set goals to create or retain 400 jobs, enhance the Waste
Isolation Pilot Plant's (WIPP) infrastructure to accommodate increased waste shipments, add resources to
increase shipments from 24 to 35 per week, and increase the amount of waste certified for disposal by
10,000 cubic meters.

Carlsbad increased the shipments to the WIPP by 26 percent using Recovery Act funds, but its goal to
accelerate shipments to WIPP from 24 to 35 per week was only achieved twice between May 2009 and
December 2010. Also, Carlsbad's Recovery Act goal to certify 10,000 cubic meters of TRU waste for
disposal at WIPP was reduced to 8,570 cubic meters in March 2010 and then to 6,255 cubic meters later
in 2010.

Although waste shipment and certification goals were not being met, Carlsbad reported through its Earned
Value Management System (EVMS) scores that both transportation and certification metrics were on track.
This occurred because Carlsbad was using the EVMS to track resources available for use, rather than the
performance achieved using those resources. We noted, however, that reporting favorable EVMS scores
based solely on resource availability presented an inaccurate picture of both performance and resource
utilization.

Management agreed that it had not consistently met its waste shipment and certification goals. However,
Carlsbad implemented a new acceleration plan with corrective actions designed to improve performance.
In addition, Carlsbad's reporting of shipping and certification rates to senior management provided
alternative information to the EVMS scores. In consideration of the improvements and practices already
implemented in performance management, we suggested Carlsbad ensure future EVMS performance
metrics provide feedback on actual programmatic performance. (OAS-RA-L-11-09)


Department’s Controls over Recovery Act Spending at the Idaho
National Laboratory (Idaho)

The Department’s Office of Environmental Management (EM) oversees two major contracts for cleaning
up the legacy contamination at the Idaho National Laboratory. The 7-year, $2.9 billion contract with
CH2M◆WG Idaho, LLC (CWI), was established in 2005, for a wide range of Idaho clean-up functions
and is scheduled to end September 30, 2012. Under this contract, CWI was entitled to incentive fees if it
completed work for less than target costs. The second contract, valued at $843 million, was with Bechtel
BWXT Idaho, LLC (Bechtel); to operate the Advanced Mixed Waste Treatment Project and is scheduled to
end in FY 2011. Under the Recovery Act, the Department provided CWI with $422.75 million and
Bechtel with $22.5 million to accelerate the Idaho cleanup effort.

We found that CWI and Bechtel were generally on schedule to meet established cost and schedule estimates
for Recovery Act-funded work. Additionally, for the projects reviewed, we did not identify any material



 12    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




issues with CWI and Bechtel compliance with selected Recovery Act requirements, including the
segregation of funds. However, for the CWI Recovery Act-funded work, we identified certain weaknesses
in the manner in which the Idaho Operations Office managed the CWI contract and measured
performance for incentive fee determination purposes. Accordingly, we suggested that the Department
ensure that contracts are being actively managed by directing the Contracting Officer at sites to formally
remove work scope from contracts when work is pushed beyond the terms of the contract; renegotiate
performance incentives fees using current cost and pricing data, where appropriate; and, ensure that
contracts are managed in tandem with baseline changes. (OAS-RA-L-11-10)


The Advanced Research Projects Agency – Energy

The Advanced Research Projects Agency – Energy (ARPA-E), an agency within the Department, was
authorized in 2007 as part of the America COMPETES Act (COMPETES Act). The goals of ARPA-E are
to enhance domestic economic security through the development of energy technologies and to ensure that
the United States maintains a technological lead in developing and deploying advanced energy technologies.
To accomplish these goals, ARPA-E focuses exclusively on high-risk, high-payoff concepts. The Recovery
Act provided an additional $400 million to ARPA-E.

ARPA-E generally had systems in place to make research awards and to deploy Recovery Act resources.
However, we found that ARPA-E had not established a systematic approach to ensure that it was meeting
the technology transfer and outreach requirement of the COMPETES Act and had not drafted or, in some
cases, approved draft policies and procedures in a number of key areas, including those in the areas of
monitoring and oversight of awardees; termination of non-performing awards; technology transfer and
outreach; and, invoice review. Additionally, through transaction testing we performed at three recipient
sites, we identified and questioned approximately $280,387 in unsupported, unreasonable, or unallowable
costs, or costs considered to be specifically unallowable, that had been incurred by two recipients.
According to an ARPA-E official, ARPA-E focused its attention on meeting the Recovery Act requirement
of expeditiously awarding funds to projects by September 30, 2010; and, as a consequence did not have
sufficient time and resources to devote to establishing all its operational controls in the area of policies and
procedures. We also found that ARPA-E was unaware that recipients had incurred the types of costs we
questioned because they did not require submission of transaction details as part of their invoice review
process.

We recommended that several management best practices be implemented. Management concurred with
our recommendations and stated that it had already taken corrective actions or would be taking actions on
each of the recommendations. (OAS-RA-11-11)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                              APRIL 1, 2011 – SEPTEMBER 30, 2011          13
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Los Alamos National Laboratory (Los Alamos) Environmental
Management Activities Funded by the Recovery Act

The Recovery Act funded work at Los Alamos is part of an estimated $2.2 billion effort to remediate Los
Alamos by December 15, 2015, as required by a Consent Order agreement with the New Mexico
Environment Department. The National Nuclear Security Administration’s (NNSA) Los Alamos Site
Office is responsible for oversight of the legacy cleanup projects funded by the Recovery Act at TA-21,
including: the Tritium Systems Test and Assembly project – a $14.8 million project to demolish five
facilities and remove slabs and surface contamination; and, the Material Disposal Area B (MDA-B) project
– a $93.5 million project to excavate low-level nuclear waste and to restore the site.

Our testing did not reveal any significant issues concerning Los Alamos' compliance with Recovery Act
requirements for reporting, job creation, segregation of funds, and flow down of requirements to
subcontracts. However, we noted that Los Alamos had not:
   ■	   Established a management reserve to fund cost increases and schedule slippages caused by MDA-B
        project risks that was commensurate with the level of uncertainty that existed about the type and
        amount of waste to be remediated;
   ■	   Fully implemented the established baseline change control process for the TA-21 Recovery Act
        projects to ensure that project scope, schedule, and cost changes were documented and formally
        resolved; and,
   ■	   Updated the Recovery Act Project Execution Plan as required.

NNSA and Los Alamos management have taken action to improve project management of the Recovery
Act-funded TA-21 projects. NNSA informed us that the Los Alamos Site Office Manager and other senior
staff have instituted weekly meetings with the MDA-B project staff to increase Federal oversight and assure
that Los Alamos and its subcontractors are properly communicating and managing technical risks.
Management also told us that the management reserve has been reevaluated and that remaining risks were
again quantified and included in the baseline change control process. Finally, management stated that Los
Alamos is working closely with the Los Alamos Site Office to update the Project Execution Plan.
(OAS-RA-11-15)


The Status of Energy Efficiency and Conservation Block Grant
Recipients’ Obligations

Under the Recovery Act, the Energy Efficiency and Conservation Block Grant (EECBG) Program received
$3.2 billion to improve energy efficiency and reduce energy use and fossil fuel emissions. EECBG
agreements have a maximum performance period of 36 months and, in support of the Recovery Act's goal
of immediate investment in the economy, the Department required grant recipients to obligate all funds
within 18 months of the grant award date.




 14      OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Our review disclosed that as much as $879 million, or 33 percent of the $2.7 billion allocated for formula-
based EECBG grants, had not been obligated by the recipients. Our testing also revealed a number of
apparent inaccuracies in data that Department officials used to monitor grantee obligations and spending.
Department officials indicated they were aware of these issues and had made numerous outreach efforts
with recipients to provide assistance in removing barriers to obligating and spending funds. Additionally,
officials are currently evaluating the likelihood that recipients will be able to expend funds before the end of
their grant performance periods and identifying options to address those recipients who may fail to do so.
However, as time continues to pass, the Department needs to finalize a plan of action to address
unobligated funding.

Department management concurred with our recommendations and indicated in its response that it was
executing plans to address each of the issues identified. Management committed to complete outreach
activities to recipients, institute corrective action plans where needed, finalize and communicate plans for
recipients unlikely to spend all funds by the end of the grant performance period, and identify and correct
data quality issues. (OAS-RA-11-16)


Energy Efficiency and Conservation Block Grant Program Funded
under the Recovery Act for Pennsylvania

The Department awarded a $23.6 million formula grant to Pennsylvania's Department of Environmental
Protection. Of the $23.6 million awarded, Pennsylvania retained about $1.2 million in funding for
administrative costs and awarded $22.4 million to 69 local governments and 33 non-profit entities selected
through a merit review process. In total, Pennsylvania plans to complete 102 energy conservation projects.

We found that Pennsylvania had developed and implemented a monitoring system designed to provide
reasonable assurance that Block Grant projects would improve energy efficiency, be completed timely, and
funding would be accounted for and spent properly. Additionally, we found that Pennsylvania had awarded
grants for projects consistent with program objectives in improving energy efficiency and reducing energy
use. We suggested that Pennsylvania continue to closely monitor project performance and funds expended
in order to meet program goals and Recovery Act requirements, and ensure contract workers are paid no
less than minimum wage rates required. (OAS-RA-L-11-11)


Implementation of the Recovery Act at the Savannah River Site

The Department's Savannah River Site (Savannah River), in Aiken, South Carolina, was allotted more than
$1.6 billion in Recovery Act funds to accelerate the completion of existing EM projects, such as
decontamination and decommissioning of inactive nuclear facilities and the remediation of contaminated
soil and groundwater.



             Public reports are available in full text on our website at www.ig.energy.gov



                                                             APRIL 1, 2011 – SEPTEMBER 30, 2011           15
                                           SEMIANNUAL
                                           REPORT TO CONGRESS




We found that the site generally complied with Recovery Act requirements we tested, such as reporting,
ensuring the flow down of requirements to subcontracts, and segregation of funds. However, we did
identify a concern regarding the accurate distribution of costs associated with staff augmentation
contractors working on Recovery Act projects. Specifically, we identified $17,236 of invoiced costs that
were not charged to the appropriate project activity codes. We were informed that steps had been taken to
correct some misapplied distributions and prevent future errors. Operating contractor management
indicated that they planned to implement a new accounts payable system effective October 1, 2011, that
would automate the process and better align staff augmentation invoicing with cost distribution to
Recovery Act projects. We suggested that the operating contractor and Departmental management review
manual adjustments to the current system, as necessary, to ensure the accuracy of staff augmentation cost
distributions. (OAS-RA-L-11-12)


Upgrade Project at Thomas Jefferson National Accelerator Facility

In September 2008, the Department's Office of Science (Science) approved a construction project to double
the electron beam energy of the Continuous Electron Beam Accelerator Facility at the Thomas Jefferson
National Accelerator Facility from 6 to 12 billion electron volts. Under a prime contract with the
Department, Jefferson Science Associates (JSA) is responsible for managing the project as well as the
management and operation of the Jefferson Laboratory. The total project cost for the Upgrade Project is
$310 million which includes $65 million in Recovery Act funding. Virginia also provided $9 million to JSA
as part of its higher education program to leverage the Department's investment in the Upgrade Project.

The Upgrade Project generally complied with the Recovery Act requirements we tested and was, for the
most part, on schedule. However, we identified several opportunities to strengthen project monitoring and
control. For instance, we found that JSA used funds from Virginia to pay for Upgrade Project tasks even
though the funds had not been formally obligated to its contract; and Jefferson Laboratory did not include
all of the costs for the Upgrade Project in the total project cost. We suggested that Department
management ensure that Upgrade Project tasks paid with funds received from Virginia and other sources are
included in the calculation of total project cost; and JSA fully addresses Science’s Office of Projects
Assessment concerns in a timely manner. In addition, we suggested that Department management clarify
policies and procedures for handling funds received from non-Department sources, such as those received
from Virginia. (OAS-RA-L-11-13)


Verification of Lawrence Berkeley National Laboratory's Contract
Workers' Eligibility to Work in the U.S.

The Department’s Lawrence Berkeley National Laboratory (Berkeley) is a research laboratory managed by
the Department's Berkeley Site Office. In addition to its FY 2010 budget of approximately $707 million,
Berkeley received an additional $104 million in funding from the Recovery Act. Much of this funding is
being used in combination with Department funds to complete infrastructure upgrades through the use of
contractors and subcontractors, resulting in temporary workers gaining access to the Berkeley site. The



 16    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                            REPORT TO CONGRESS




Immigration Reform and Control Act of 1986 (the Act) makes it illegal for employers to knowingly hire and
continue to employ individuals who are not eligible to work (unauthorized workers) in the United States
(U.S.). To comply with the Act, employers must complete an Employment Eligibility Verification Form
(Form I-9) for each employee at the time of hiring.

We found that not all of Berkeley’s subcontractors ensured that individuals they employed to work on the
site were initially eligible or maintained authorization to work in the U.S. throughout the term of their
employment. Some contractors had employees complete required Form I-9s only after we requested them,
and others purged their employees' forms from personnel files or had neglected to update and re-verify
supporting documents (such as work authorizations and visas). As a consequence, unauthorized workers
may have inappropriately gained access to Federally-funded facilities and could have displaced U.S. citizens
or other authorized workers from jobs. Notably, about $29 million of the $65 million dedicated to the
contracts we reviewed were provided through the Recovery Act where one of the primary purposes of the
Recovery Act was to stimulate the economy and provide employment for citizens and other eligible
workers. Further, of the $29 million in Recovery Act funds, $2.7 million was received by subcontractors
included in our review. The Department and the Berkeley Site Office concurred with the report's findings
and recommendations. (DOE/IG-0850)




 Whistleblower Retaliation
Section 1553 of the Recovery Act extends whistleblower protection to employees who believe they are, or
have been, retaliated against for reporting misuse of Recovery Act funds received by their non-Federal
employers. Specifically, an employee of any non-Federal employer, such as a private company or a state or
local agency, who reports information that the employee reasonably believes is evidence of waste, fraud or
abuse connected to the use of Recovery Act funds, may not be discharged, demoted or otherwise
discriminated against because of his or her disclosure. Unless the Inspector General determines that the
complaint is frivolous, does not relate to covered funds, or another Federal or State judicial or
administrative proceeding has previously been invoked to resolve such complaint, the Inspector General
shall investigate the complaint and issue a report of findings.

The activity of the office is summarized in the chart on page 42.




             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2011 – SEPTEMBER 30, 2011         17
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




                       Other Significant Audits,
                       Inspections, and Reviews
Security Planning for National                           Follow-up Audit of NNSA's
Security Information Systems at                          Nuclear Explosive Safety
Lawrence Livermore National                              Study Program
Laboratory (Livermore)
                                                         Many of the nuclear explosive operations related to
                                                         NNSA’s mission, including assembly, disassembly,
The NNSA is responsible for the maintenance
                                                         surveillance, refurbishment, and dismantlement of
and security of the Nation's nuclear stockpile,
                                                         nuclear weapons, are performed at the Pantex
management of nuclear nonproliferation activities,
                                                         Plant (Pantex). The Department requires that a
and operation of the naval reactor programs. A
                                                         Nuclear Explosive Safety (NES) study be
significant amount of the information related to
                                                         conducted and approved before any nuclear
these mission activities is classified and stored or
                                                         explosive operations are performed due to the
processed in national security information systems.
                                                         unacceptable consequences of an accident. NES
Livermore maintains various national security
                                                         studies are formal evaluations of proposed nuclear
systems, ranging from diskless workstations to
                                                         explosive operations to determine the adequacy of
large supercomputers, which process sensitive and
                                                         controls to prevent inadvertent or accidental
classified information in support of program
                                                         detonations or fissile material dispersals.
objectives.
                                                         In January 2003, we reported that comprehensive
We found that based on our prior reviews                 NES studies had been delayed for six of the nine
Livermore had taken steps to improve the risk            nuclear weapon types that were active in the
management process for its national security             nation's stockpile. Our current review disclosed
information systems. However, we found that              that all appropriate required NES studies and
additional actions are needed in the area of             operational safety reviews (OSRs) were completed
security planning and policies to reduce the risk        and approved by NNSA. However, we noted that
of compromise. Without improvements, the                 most NES studies and OSRs included issues of
weaknesses identified may limit program and site-        concern that were designated as post-start findings
level officials' ability to make informed risk-based     that were unresolved for periods ranging from
decisions that support the protection of classified      5 months to nearly 12 years.
information and the systems on which it resides.
                                                         According to NES experts, actions taken to address
We made several recommendations that, if fully           post-start findings serve to enhance NES, but are not
implemented, should help enhance NNSA's and              considered critical enough to suspend operations.
Livermore's management of risk over national             To further enhance, we suggested that the Manager,
security information systems. Management                 Pantex Site Office direct Pantex to improve its
indicated that it generally agreed with the report's     processes regarding post-start findings by:
findings and commented that corrective actions           (1) documenting the basis for requests for due date
were already underway to address issues identified       extensions, and (2) reviewing the reasons why the
in the report. (OAS-M-11-03)                             extended due dates were not met. (OAS-L-11-04)


  18    OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




Implementation of Beryllium                               Alleged Violations of Executive
Controls at Livermore                                     Order 12333, U.S. Intelligence
                                                          Activities – Improper Retention
The Department has a long history of using
                                                          and Dissemination of
beryllium – a metal essential for nuclear operations
and processes. Exposure to beryllium can cause            Information on U.S. Persons
beryllium sensitization or even Chronic Beryllium
Disease, an often debilitating, and sometimes fatal,      Within the Department, the Office of Intelligence
lung condition. Livermore established a Chronic           and Counterintelligence (CI) is responsible for
Beryllium Disease Prevention Program. An                  collecting, reviewing, analyzing, investigating
NNSA review identified weaknesses in Livermore's          and acting on concerns ranging from foreign
Prevention Program. Also, the Department's                intelligence to potential and actual terrorist
Office of Enforcement investigation identified            activities. As part of its process, CI established
violations of the regulation in the vital areas of        what it termed "SPOT Reports".
identifying the presence of beryllium in facilities,
communicating beryllium hazards to workers,               While we took no exception to collection
training workers in beryllium control procedures,         techniques, our inspection found that the
and surveillance and monitoring for medical               Department had not always adequately managed
effects of exposures.                                     “SPOT Reports”. We discovered that the
                                                          dissemination, review, retention and deletion of
During our review, we found that Livermore                “SPOT Reports” containing information on
expended significant effort and had completed a           U.S. Persons did not always comport with the
number of corrective actions designed to improve          Department's Procedures for Intelligence Activities
its Prevention Program. However, we found that,           and its Counterintelligence Directorate's
in certain instances, all actions necessary to resolve    Counterintelligence Professional Guide.
previously observed weaknesses had not been
completed. We concluded that implementation               While trying to determine the underlying cause
issues we observed occurred, at least in part,            of the problems with review, retention and
because the Livermore Site Office's oversight             dissemination of “SPOT Reports”, we found that
efforts during the implementation of Livermore's          some CI officials were not fully conversant with
corrective actions were not entirely effective.           laws, regulations, executive orders and procedures
                                                          concerning retention of information gathered on
Management did not dispute the findings but               U.S. Persons. CI officials informed us that as a
indicated that it did not agree with our                  result of our inspection they had discontinued the
conclusions as they related to oversight weaknesses       use of “SPOT Reports” on U.S. Persons as of
at the Livermore Site Office. Management agreed           October 2010. These officials also indicated that
with our recommendations for ensuring that                effective January 2011, CI discontinued the use of
Livermore performs various actions as                     all “SPOT Reports”, including those involving
opportunities for continuous improvement and              cyber-related events.
stated they had already taken corrective action or
will take additional corrective action.                   We made several recommendations to help
(DOE/IG–0851)                                             improve the purge/deletion process and ensure

             Public reports are available in full text on our website at www.ig.energy.gov



                                                            APRIL 1, 2011 – SEPTEMBER 30, 2011           19
                                               SEMIANNUAL
                                               REPORT TO CONGRESS




that information on U.S. Persons that is not              Organizational Conflicts of
needed is completely deleted. CI concurred with
                                                          Interest Program at Sandia
the report's recommendations. We consider
management's comments responsive to our                   National Laboratories
recommendations. (DOE/IG-0852)
                                                          The NNSA’s Sandia National Laboratories
                                                          (Sandia) is designated as a Federally Funded
Implementation of Nuclear                                 Research and Development Center. In performing
                                                          its various research-related activities, Sandia has
Weapons Quality Assurance                                 special access to a wide variety of Government
Requirements at Los Alamos                                proprietary information. Pursuant to Federal
                                                          Acquisition Regulation 35.017, Federally Funded
In its effort to attain the highest quality in weapons    Research and Development Centers, and other
engineering design and manufacturing, the                 contractual provisions, Sandia is obligated to
Department established the DOE/NNSA Weapon                protect proprietary data, act with independence
Quality Policy (QC-1). This policy requires NNSA          and objectivity, and perform in a manner free from
and its contractors to establish processes to detect      any Organizational Conflicts of Interest (OCI).
and prevent quality problems. This policy also
requires that items, services and processes that do       Our inspection revealed a number of areas where
not meet established requirements be identified,          Sandia could improve its OCI process to prevent
controlled and corrected. To that end, NNSA and           potential or actual OCI. Although specifically
Los Alamos conduct surveys to help ensure that            required by Federal regulation and contractual
problems are identified and corrected. In previous        provisions, Sandia had not completed a number
reports, we have identified problems with quality         of OCI-related activities.
assurance processes at the Department's National
Laboratories.                                             We also found that Sandia personnel who worked
                                                          directly with Lockheed Martin Corporation on
Our inspection did not identify any material              Work for Others projects and Cooperative Research
concerns with Los Alamos' quality management              and Development Agreements were not aware of
system. We did, however, identify a potential             the process for releasing information that may have
opportunity to improve the effectiveness of the           been proprietary to the parent corporation.
program. Specifically, we found that Los Alamos
may not have focused on identifying and                   NNSA management generally agreed with the
evaluating the cause or causes of frequently cited        report and the recommendations, and indicated
weaknesses related to certain design and                  that Sandia has already initiated improvement
production activities.                                    efforts in several areas to strengthen its OCI
                                                          program. NNSA management also identified a
We suggested that the Manager and the Quality             series of comprehensive actions they plan to take in
Assurance Manager, at the Los Alamos Site Office,         order to ensure the integrity of the Sandia OCI
continue to fully implement quality assurance             program, to include specific actions they will direct
throughout the Laboratory and ensure that Los             Sandia to take. In addition, Sandia stated that they
Alamos addresses recurring deficiencies consistent        are in agreement with the overall conclusions of the
with the requirements of QC-1. (INS-L-11-02)              report, and that the conclusions are reflected in the
                                                          recommendations. (DOE/IG-0853)



  20    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




The Department's K-25 Building	                          of lessons learned and best practices that the
                                                         Department could apply in on-going or yet to be
Decontamination and
                                                         initiated environmental remediation projects. The
Decommissioning Project                                  Oak Ridge Office generally agreed with the
                                                         report's findings and recommendations.
The East Tennessee Technology Park (ETTP),               Management also provided information on
formerly the Oak Ridge Gaseous Diffusion Plant,          completed and planned corrective actions.
began operation during World War II as part of           (DOE/IG-0854)
the Manhattan Project. As the Department's
missions changed, operations at the plant ceased
and the Department began a massive                       Follow-up Review of Property
environmental remediation effort with completion
anticipated in 2016. In 2001, the Department             Control and Accountability
estimated that it would decontaminate and                at Idaho
decommission (D&D) – a process which readies a
building for demolition – both the K-25 building         The primary function of Idaho is to support the
and its sister facility, the K-27 building, at a cost    Department's mission regarding nuclear and
of $460 million. In 2002, the Department                 energy research, science and national defense. The
developed a plan to accelerate closure of ETTP,          Idaho Operations Office oversees Battelle Energy
projecting a revised end date of 2008. The               Alliance, which manages and operates Idaho for
Department emphasized that risk reduction was a          the Department. In April 2005, the Office of
key factor for accelerating closure, noting that the     Inspector General (OIG) issued a report on
K-25 and K-27 buildings posed some of the most           “Property Control and Accountability at the Idaho
serious environmental and safety risks at the site.      National Laboratory” (DOE/IG-0687) which
                                                         concluded that certain improvements were needed
We found that problems with contract                     in property management and reporting processes.
administration and project management likely             Management concurred with the
impacted the Department's ability to effectively         recommendations and stated that they took
manage the many technical challenges it                  corrective action in response to our report.
encountered during its attempts to complete the
K-25 D&D Project. While we could not directly            This inspection revealed that Idaho officials have
link contract and project management weaknesses          generally taken corrective action in response to our
to discrete cost and schedule impacts, in our            2005 report to improve Idaho's processes for
opinion, there was little doubt that these issues        maintaining custody and accountability for excess
adversely affected management's ability to               property and for reporting and investigating
effectively manage the burgeoning cost of the            missing or stolen property. Additionally, as a part
K-25 D&D Project.                                        of our inspection, we could not substantiate an
                                                         allegation that Idaho may not be exerting due
We made a series of recommendations designed             diligence to locate missing property prior to
to help strengthen overall management of the             excessing it from the inventory as “retired”
K-25 D&D Project. We also outlined a series              property. (INS-L-11-03)



             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2011 – SEPTEMBER 30, 2011          21
                                              SEMIANNUAL
                                             REPORT TO CONGRESS




Allegations of Suspect Parts in	                        monthly living expenses (FMLE) which were
                                                        negotiated travel reimbursements that provide a
Sun Microsystems Processors at
                                                        fixed monthly payment to cover specified travel
Sandia – New Mexico                                     expenses. An OIG investigation determined that
                                                        a Livermore subcontractor paid $181,666 to
Sandia-New Mexico is a science-based technology         subcontract employees who claimed and received
organization that purchases world class                 payments to which they were not entitled.
technologies and specialized services to support the
Sandia-New Mexico national security mission.            This subsequent inspection found that Livermore,
Oversight of Sandia Corporation's contract is           as a result of the investigation, had taken actions
performed by the NNSA’s Sandia Site Office.             to address FMLE issues. For instance, Livermore
In support of its mission, Sandia has maintained        established policies and procedures for the
a Just-In-Time (JIT) contract with Commercial           management and administration of the FMLE
Data Systems (CDS), an authorized reseller of           process. However, we suggested that the Manager,
computer hardware components since 2001,                Livermore Site Office, closely monitor and
to provide commercial off-the-shelf Sun                 periodically review the FMLE program to ensure
Microsystems products to Sandia.                        that current Livermore policies and procedures are
                                                        effective in precluding inappropriate FMLE
We were unable to substantiate the allegation that      payments and that internal controls have been
Sandia purchased suspect computer parts that            established to prevent future problems
were installed in Sun Microsystems processors.          (INS-L-11-05).
However, we did find that, for a period of more
than 6 years, CDS provided commercial off-the­
shelf Sun Microsystems products to Sandia under         Protective Force Training Facility
the JIT contract without specific quality clauses
prohibiting delivery of suspect or counterfeit          Utilization at the Pantex Plant
items. We suggested that the Manager, Sandia Site
Office, review the use of the standard clause for       In 2001, the Department authorized individual
suspect and counterfeit items at Sandia and ensure      sites to conduct basic training at their own sites.
that Sandia continues to incorporate the clause         Since then, various NNSA sites have built their
when appropriate into new and existing contracts.       own training facilities for their protective forces to
(INS-L-11-04)                                           meet their security training requirements and
                                                        prepare for possible threats or adverse actions.
                                                        NNSA's Office of Secure Transportation (OST)
                                                        authorized approximately $2 million in March
Fixed Monthly Living Expense
                                                        2011 to construct a Physical Training/Intermediate
Payments at Livermore                                   Use of Force (PT/IUF) facility at Pantex, near
                                                        Amarillo, Texas.
Livermore is managed and operated by Lawrence
Livermore National Security, LLC, for the NNSA.         We found that OST's plans to construct the
In certain circumstances, Livermore utilized            PT/IUF facility at Pantex may not be cost
subcontractors to obtain specialized skill sets that    effective. Specifically, we noted that Pantex's
are not available locally. To minimize travel           existing PT/IUF facilities have the capacity to
expenses, some subcontractors received fixed            fulfill OST's training needs. OST's analysis to



 22    OFFICE OF INSPECTOR GENERAL
                                               SEMIANNUAL
                                              REPORT TO CONGRESS




justify the construction of a new PT/IUF facility
at Pantex did not fully consider the capability and
capacity of Pantex's existing facilities. We wanted
to ensure that NNSA decision makers were aware
of our concerns before resource commitments were
made regarding the path forward for this facility.
Management reviewed a draft of this report and
stated that in response to the recommendation
OST, in conjunction with the Pantex Site Office,
will re-evaluate its training facility requirements to
determine whether a separate OST PT/IUF facility
is in NNSA's best interest. (DOE/IG-0855)




             Public reports are available in full text on our website at www.ig.energy.gov



                                                           APRIL 1, 2011 – SEPTEMBER 30, 2011   23
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




                       Investigative Outcomes

Corporation Pays Settlement in                          River Ecology Laboratory. The equipment was
                                                        recovered from a University of Kentucky
Bid Rigging and Kickback
                                                        laboratory utilized by the former Department
Investigation                                           subcontractor employee who was alleged to have
                                                        taken the equipment. The investigation is
As previously reported, this investigation              ongoing and is a joint investigation with the
determined that information technology                  University of Kentucky Police.
manufacturers, distributors, and systems
integrators engaged in defective pricing that
violated the terms of their General Services            Department Grantee’s Former
Administration (GSA) Schedule Contracts.
The manufacturers, distributors, and systems            Chief Financial Officer (CFO)
integrators failed to provide truthful and accurate     Pleads Guilty
pricing information, failed to pass on price
reductions and failed to offer discounts when           The former CFO of an organization responsible
required by their GSA Schedule Contracts.               for promoting green energy pled guilty to one
Additionally, the investigation determined several      count of wire fraud and one count of money
of the information technology manufactures              laundering in U.S. District Court for the Eastern
violated the Anti-Kickback Act by engaging in           District of Tennessee. The organization received
the payment of kickbacks. During this                   Department grant and contract funds. The
reporting period, one systems integrator/               investigation determined that the former CFO
consultant corporation paid over $63.5 million          stole in excess of $400,000 from the non-profit
to settle bid rigging and Anti-Kickback Act             agency over a 3-year period using various
allegations. This is an ongoing joint investigation     financial schemes.
with the Department of Justice Civil Division,
U.S. Attorney’s Office for the Eastern District of
Arkansas, Defense Criminal Investigative Service,       Former Subcontractor Employee
GSA OIG, Treasury Inspector General for Tax             Pleads Guilty to Anti-Kickback
Administration, Defense Contract Audit Agency,
the Transportation Security Administration, the
                                                        Act Violation
Department of State, Department of Education
and the U.S. Postal Service OIG.                        A former subcontractor employee at the Y-12
                                                        National Security Complex (Y-12) pled guilty in
                                                        U.S. District Court for the Eastern District of
                                                        Tennessee to a one count violation of the Anti-
Laboratory Equipment                                    Kickback Act and agreed to pay restitution of
Recovered                                               $294,976. The investigation determined that the
                                                        former subcontractor employee received kickbacks
The OIG recovered over $436,000 in laboratory           from another Y-12 subcontractor. The
equipment stolen from the Department’s Savannah         investigation also revealed that during 2006, 2007


 24    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




and 2008, the former subcontractor billed time          subcontractor employees from doing business with
and received payment for hours he did not work.         the Federal Government for a period of 3 years.


Former Los Alamos Contractor                            Former Contractor Employee
Employee Debarred from                                  Pled Guilty
Government Contracting
                                                        A former contractor employee of Livermore pled
As previously reported, an OIG investigation            guilty in Alameda County Superior Court to one
determined that while employed as a timekeeper at       count of felony embezzlement of Government
Los Alamos, a contractor employee fraudulently          property and was sentenced to one day
entered over 300 hours into the Los Alamos              incarceration and 5 years probation. The
payroll system resulting in the individual receiving    individual was also ordered to pay $9,640 in
payment for hours not worked. The individual            restitution, court fees and assessments. The
pled guilty in U.S. District Court for the District     investigation determined that while employed at
of New Mexico and was sentenced to 3 years              Livermore, the individual stole high-end printer
supervised probation and was ordered to pay             cartridges and sold them to a supply company and
$15,363 restitution to the Department. During           online wholesalers.
this reporting period, in response to an
Investigative Report to Management (IRM), the
individual was also debarred from doing business        Former Los Alamos
with the Federal Government for 3 years.                Subcontractor Employee
                                                        Debarred from Government
Former Los Alamos                                       Contracting
Subcontractor Employees                                 As previously reported, an OIG investigation
Debarred from Government                                determined that while employed at Los Alamos, an
Contracting                                             individual attempted to steal irradiated gold from
                                                        a Los Alamos plutonium processing facility. The
As previously reported, an OIG investigation            former employee pled guilty in U.S. District Court
determined that while employed at Los Alamos,           for the District of New Mexico and was sentenced
4 former subcontractor employees stole 5,253            to 366 days in prison and 3 years supervised
pounds of specialized copper wire belonging to Los      probation. During this reporting period, in
Alamos and sold it for their own personal gain.         response to an IRM, the former Los Alamos
Each of the individuals was accepted into the State     employee was debarred from doing business with
of New Mexico’s Pre-Prosecution Diversion               the Federal Government for 3 years.
Program and all four were ordered to pay
restitution to the Department totaling $11,469.
During this reporting period, in response to an
IRM, NNSA debarred the four former Los Alamos

             Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2011 – SEPTEMBER 30, 2011        25
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Grantee Reimburses the                                 Department Employee Pleads
Department                                             Guilty in U.S. District Court

A Department grantee reimbursed the Department         A senior Department employee pled guilty in U.S.
$133,605 after an OIG investigation determined         District Court for the District of Columbia to one
the funds were spent on unallowable and                count of converting public money. The employee
unsupported grant costs. The grantee, a non­           retired in lieu of termination. The OIG
profit organization, was supposed to use the grant     investigation determined that the director
funds to renovate and expand a math, science and       submitted and was reimbursed for fraudulent
technology center. The investigative findings were     vouchers in connection with official Department
reported to the Chicago Operations Office, which       travel.
led to the grantee agreeing to reimburse the
Department.
                                                       Former Subcontractor Employee
                                                       and Two Private Citizens
Department Subcontractor
                                                       Debarred from Government
Employee Pays Restitution
                                                       Contracting
NNSA reported receiving $32,819 in voluntary
                                                       As previously reported, an OIG investigation
restitution from a Department subcontractor
                                                       determined that three individuals conspired to
employee. The payment was made as part of an
                                                       steal and fraudulently use two GSA fuel credit
agreement between the New Mexico First Judicial
                                                       cards issued to Los Alamos. The former
District Attorney’s Office and the individual. The
                                                       subcontractor employee and one private citizen
investigation determined that the subcontractor
                                                       were placed into the State of New Mexico’s Pre-
employee submitted and was reimbursed with
                                                       Prosecution Diversion Program. The other
Department funds for fraudulent travel claims.
                                                       private citizen pled guilty and was sentenced to
                                                       3 years probation. The three individuals were also
                                                       required to pay restitution to the Department.
Employment Terminated in                               During this reporting period, in response to an
Fraud Investigation                                    IRM, the former Los Alamos sub-contractor
                                                       employee and the two private citizens were
A subcontractor employee of Sandia and Los Alamos      debarred from doing business with the Federal
National Laboratories was terminated from              Government for 3 years.
employment. The joint investigation between the
OIG and U.S. Secret Service determined that the
former subcontractor employee sold Department          Two Former Pantex Plant
computer serial numbers to an individual with no       Contractor Employees
Department affiliation on numerous occasions. The
computer serial numbers were used to fraudulently
                                                       Sentenced
obtain over $1.6 million worth of computer parts
from a large computer manufacturer. There was no       As previously reported, two contractor employees
loss to the Department.                                were terminated from employment at Pantex
                                                       pursuant to OIG investigative findings. The


 26    OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




investigation determined that the two contractor        disciplinary actions, including a suspension and
employees, along with a former Pantex contractor        letters of reprimand. Additionally, management
employee, stole various items including industrial      committed to modifying the current NETL
power equipment, copper and building materials          requisition protocols.
from Pantex. During this reporting period, the
two contractor employees pled guilty in U.S.
District Court for the Northern District of Texas       IRM Issued to the Berkeley Site
to one count each of theft of Government
                                                        Office (BSO)
property. One employee was sentenced to
6 months incarceration and 3 years supervised
                                                        An IRM was issued to the BSO with three
release. The second employee was sentenced to
                                                        recommendations, including recommending a
2 years probation. Both were fined, ordered to pay
                                                        review of the vehicle accountability process of a
restitution and suspended from Government
                                                        contractor at Berkeley. All recommendations in
contracting. The exact loss to the Department has
                                                        the IRM were accepted by the site office. The
not been determined.
                                                        OIG investigation determined that the contractor
                                                        failed to properly account for its Department-
                                                        owned vehicles and failed to register the vehicles
IRM Issued in Conflict of Interest                      with the California Department of Motor Vehicles
Investigation                                           as required by law.

An IRM was issued to the administrator of the
Bonneville Power Administration (BPA). In               IRM Issued to Oak Ridge Office
response, BPA issued an official letter of reprimand
                                                        and Y-12 Site Office
to a manager who, since 2007, encouraged BPA
paint shop personnel to purchase paint and related
                                                        An IRM was issued to the managers of the Oak
supplies from a BPA vendor that gave the manager
                                                        Ridge Office and Y-12 Site Office with two
a vendor discount on personal paint purchases.
                                                        recommendations for corrective action regarding a
During the period in question, BPA made
                                                        security contractor and missing property.
$45,846 in purchases from the vendor and the
                                                        Management agreed to closely monitor the
manager purchased discounted paint from the
                                                        contractor to ensure missing items were reported
vendor for personal use.
                                                        to the Department and the NNSA. Management
                                                        also agreed to include the contractor’s failures in
                                                        the contractor’s performance report. The IRM was
IRM Issued to NETL                                      issued after an OIG investigation determined the
                                                        contractor failed to adhere to reporting
An IRM was issued to the NETL Director with             requirements involving missing property.
recommendations for corrective action. The
investigation determined that three Federal
employees made Government credit card purchases
in violation of purchase card regulations. In
response to the IRM, management took a range of

             Public reports are available in full text on our website at www.ig.energy.gov



                                                          APRIL 1, 2011 – SEPTEMBER 30, 2011        27
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




Protesters Convicted of
Trespassing at Y-12

Twelve individuals with no Department affiliation
were convicted in U.S. District Court for the
Eastern District of Tennessee for trespassing at
Y-12 in Oak Ridge, Tennessee. These individuals
were anti-nuclear protesters. Jointly, OIG agents,
the U.S. Marshals Service and Y-12 security guards
participated in the arrest, processing and detention
of the individuals.




             Public reports are available in full text on our website at www.ig.energy.gov


 28    OFFICE OF INSPECTOR GENERAL
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




                        Positive Outcomes


Highlights Based on Office of                               ■	   NNSA and Department program and site
                                                                 offices took action to strengthen controls
Inspector General Work                                           over Intergovernmental Personnel Act and
                                                                 Change of Station assignments with Federal
During this reporting period, the Department                     and non-Federal entities, including controls
took positive actions as a result of OIG work                    or processes over approvals and cost sharing
conducted during the current or previous periods.                and reimbursement.
Consistent with our findings and
recommendations:                                            ■	   NNSA examined the tracking and closure
                                                                 of findings reported by Los Alamos for fire
   ■	   EERE conducted a comprehensive analysis                  protection deficiencies and recommended
        of audit findings related to programs that               more robust documentation of closure.
        EERE sponsored or implemented under the                  NNSA also notified Los Alamos that
        Recovery Act, developed formal monitoring                periodic verification via random sampling
        plans, and implemented a centralized system              will be conducted to ensure the ongoing
        to allow better reporting of monitoring data.            efficacy of the process to address weaknesses
        In addition, EERE created a program                      regarding corrective actions for fire
        guidance website to serve as a library of                protection deficiencies.
        official guidance on key Recovery Act
        requirements like the Buy American                  ■	   Department and NNSA took steps to fully
        provision and the Davis-Bacon Act.                       implement program, site office, and
                                                                 contractor continuity of operations
   ■	   A Department contracting officer formally                planning requirements. Continuity of
        requested the return of $47,500 for                      operations planning contractor
        consulting services that was paid to a West              requirements documents were added to
        Virginia grantee due to insufficient                     contracts at sites that support or perform
        documentation to support the                             Departmental Mission Essential Functions
        reasonableness of expenditure of Recovery                or Primary Mission Essential Functions.
        Act weatherization funds.
                                                            ■	   NNSA and Los Alamos reviewed current
   ■	   NNSA issued a memo requiring the Heads                   vital safety system assessment procedures for
        of Department Elements, in consultation                  applicable quality assurance requirements
        with appropriate legal counsel, to determine             and concluded that all appropriate criteria
        whether consensual listening-in to                       had been incorporated.
        telephone/radio conversations is appropriate
        for certain operations and, if warranted, to        ■	   ARPA-E addressed concerns relating to the
        approve procedures for such activities.                  development and finalization of policies
                                                                 and procedures and lack of tracking of
                                                                 technology transfer and outreach



                                                           APRIL 1, 2011 – SEPTEMBER 30, 2011           29
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




       expenditures. In the five funding                       they were not entitled to receive. To date,
       opportunity announcements that it issued                the OIG investigations have resulted in
       in April 2011, ARPA-E required recipients               multiple criminal convictions and
       to track and report their expenditures                  disciplinary actions and two individuals
       on technology transfer and outreach to                  being debarred from doing business with
       ARPA-E to satisfy a requirement of the                  the Government for 3 years. In addition,
       America COMPETES Act.                                   the investigations have resulted in civil
                                                               settlements with contractors that failed to
   ■   A Department laboratory disclosed that it               enforce internal controls that would have
       too had some very old controlled substances             prevented the fraudulent activities. The
       requiring destruction that it was not                   contractor employees and the contractors
       authorized to possess. It coordinated with              have paid in excess of $2.2 million in fines
       the U.S. Drug Enforcement Administration                and restitution as well as settlement
       to retrieve them.                                       agreements.

The OIG has also been instrumental in                      ■   Purchase Card Fraud. The OIG has a
working with Department management and the                     number of investigations involving the
U.S. Department of Justice (DOJ) to address                    improper use of Government purchase cards
significant contractor internal control and                    by contractor employees at the
accountability issues. Recent investigations have              Department’s Hanford Site. As previously
identified fraudulent activities in the areas of               reported, several contractor employees were
long-term per diem payments and purchase card                  convicted, sentenced and ordered to pay
usage. These investigations resulted in multiple               over $1 million in restitution. During this
criminal prosecutions of contractor employees for              reporting period, a contractor employee was
fraudulent acts. The investigations also identified            sentenced to one year of supervised release
that internal controls were not being enforced by              and ordered to pay restitution. Another
Department contractors, which created an                       contractor employee pled guilty and is
environment that allowed fraud to occur                        awaiting sentencing. Additionally, five
unchecked. To date, civil actions have resulted in             contractor employees and one company
several contractors reaching settlements totaling              were debarred from doing business with the
millions of dollars. Examples of our efforts in                Federal Government. Also during this
these two areas are as follows:                                reporting period, current and former
                                                               Hanford Site contractors entered into civil
   ■   Per Diem Fraud. The OIG has a number                    settlement agreements with the DOJ to
       of investigations involving the improper                settle allegations that they repeatedly failed
       payment of per diem by Savannah River                   to address internal control weaknesses. One
       Nuclear Solutions. Many of these payments               prime contractor agreed to pay $4 million,
       involved Recovery Act funds. During this                another agreed to pay $1.5 million and a
       reporting period, four individuals were                 third agreed to pay $515,000.
       convicted for receiving per diem payments




 30     OFFICE OF INSPECTOR GENERAL
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




Congressional Responses	                               Management Referral System


During this reporting period, the OIG provided         The OIG referred 95 complaints to Department
information at the request of Congress in              management and other government agencies
16 instances and briefed congressional staff on        during the reporting period and specifically
12 occasions. In addition, the OIG testified           requested Department management to respond
at one congressional hearing before the                concerning the actions taken on 28 of these
Subcommittee on Environment and the Economy,           complaints. Otherwise, management was asked to
House Committee on Energy and Commerce, on             reply only if wrongdoing or misconduct was
June 1, 2011. The hearing was entitled, “The           confirmed or indicators of fraud involving
Department of Energy’s Role in Managing Civilian       Department programs, operations or personnel
Radioactive Waste.”                                    were identified in response to an OIG referral.
                                                       The following referrals for which responses were
                                                       received during this reporting period are examples
Legislative and Regulatory                             that demonstrate management’s use of OIG-
                                                       provided information to stimulate positive change
Reviews
                                                       or to take corrective action:
The Inspector General Act of 1978, as amended,            ■	   The OIG received allegations that certain
requires the OIG to review and comment upon
                                                               buildings at the Argonne National
legislation and regulations relating to Department
                                                               Laboratory posed potential unidentified fall
programs and to make recommendations
                                                               hazards for employees. The OIG referred
concerning the impact of such legislation or
                                                               this concern to the Department’s Office of
regulations on departmental economy and
                                                               Science for action. In response to the OIG
efficiency. The OIG coordinated and reviewed
                                                               referral, Department management required
26 items during this reporting period.
                                                               Laboratory officials to inspect the buildings
                                                               identified in the complaint. The
                                                               inspections identified potential fall hazards
Hotline System                                                 and corrective action was taken to include
                                                               installation of permanent guardrail systems,
The OIG operates a Hotline System to facilitate                posting of appropriate warning signs and
the reporting of allegations involving the programs            installation of padlocks on access doors.
and activities under the auspices of the
Department. During this reporting period, the             ■	   The OIG was advised of the theft of a
Hotline received 3,712 contacts (calls, letters,               Lawrence Livermore National Laboratory
e-mails, walk-ins, and Qui Tams); 3,387 of these               (Laboratory) Protective Force Division
were immediately resolved, redirected, or required             employee’s credential. In response to an
no further action. In addition, 342 complaints                 OIG referral to Department management,
were processed for further review and adjudication.            the Laboratory’s Security Director assessed
The OIG Hotline System can be reached by                       the use and control of staff credentials. A
calling 1-800-541-1625 or 1-202-586-4073.                      new Operational Directive was subsequently
                                                               issued concerning the carrying and




                                                         APRIL 1, 2011 – SEPTEMBER 30, 2011           31
                                            SEMIANNUAL
                                            REPORT TO CONGRESS




     accountability of credentials for Laboratory      Qui Tams
     Protective Force personnel.
                                                       Since 1996, the OIG has been instrumental in
■	   The OIG referred to Department                    working with the DOJ in Qui Tam cases. The
     management allegations of a potential             OIG is currently working on 14 Qui Tam lawsuits
     hostile work environment at an Office of          involving alleged fraud against the Government
     Science facility. In response to the referral,    with potential liability in the amount of
     management requested that a fact finder           approximately $254,300,000. While these cases
     review the situation. Based on the review         are highly resource intensive, requiring extensive
     results, a senior Department manager was          OIG investigative and audit effort, they have
     provided a formal written reprimand and           proven to result in a high return on our
     placed on a performance improvement plan.         investment.
■	   The OIG referred to Department
     management allegations that a Savannah
     River contractor exhibited preferential
     treatment toward certain staff augmentation
     companies. Specifically, the contractor
     added requirements to a Request for
     Proposal (RFP) applicable to only a few
     preferred companies which contradicted the
     spirit of small business set asides. In
     response to an OIG referral to Department
     management, the criteria were removed
     from the RFP and the process for soliciting
     and obtaining staff augmentation personnel
     was revised.




32    OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                Appendix 1 - Reports



          Recovery Act and Recovery Act-Related
                     Reports Issued
                        April 1, 2011 – September 30, 2011

Report                                                           Date               Questioned
Number                            Title                         Issued    Savings     Costs

OAS-RA-11-07   The Department of Energy’s Weatherization       06-06-11                $17,110
               Assistance Program Funded under the
               American Recovery and Reinvestment Act
               for the State of Wisconsin

OAS-RA-11-08   Management Alert on Planned Actions             04-22-11
               Related to the National Energy Technology
               Laboratory’s Simulation-Based Engineering
               User Center

OAS-RA-11-09   The Department of Energy’s Weatherization       06-13-11                $67,600
               Assistance Program under the American
               Recovery and Reinvestment Act in the State
               of West Virginia

OAS-RA-11-10   The Department of Energy’s American             07-28-11
               Recovery and Reinvestment Act – California
               State Energy Program

OAS-RA-11-11   The Advanced Research Projects Agency –         08-22-11              $280,387
               Energy

OAS-RA-11-12   The Department of Energy’s Weatherization       08-22-11
               Assistance Program under the American
               Recovery and Reinvestment Act in the
               State of Missouri

OAS-RA-11-13   The Department of Energy’s Weatherization       08-23-11                 $8,000
               Assistance Program Funded under the
               American Recovery and Reinvestment Act in
               the State of Indiana




                                                       APRIL 1, 2011 – SEPTEMBER 30, 2011   33
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




          Recovery Act and Recovery Act-Related
                     Reports Issued
                        April 1, 2011 – September 30, 2011

Report                                                           Date               Questioned
Number                            Title                         Issued    Savings     Costs

OAS-RA-11-14   The Department of Energy’s Weatherization       08-25-11             $1,200,000
               Assistance Program Funded under the
               American Recovery and Reinvestment Act
               for the Commonwealth of Virginia

OAS-RA-11-15   Los Alamos National Laboratory                  08-25-11
               Environmental Management Activities
               Funded by the Recovery Act

OAS-RA-11-16   The Status of Energy Efficiency and             09-01-11
               Conservation Block Grant Recipients’
               Obligations

OAS-RA-11-17   The Department of Energy’s Weatherization       09-19-01              $126,774
               Assistance Program under the American
               Recovery and Reinvestment Act in the
               State of Tennessee

OAS-RA-11-18   Examination Report “Community Action            09-29-11
               Partnership of the Greater Dayton Area –
               Weatherization Assistance Program Funded
               by the American Recovery and Reinvestment
               Act of 2009”

OAS-RA-11-19   Examination Report “Cuyahoga County of          09-29-11
               Ohio Department of Development -
               Weatherization Assistance Program Funded
               by the American Recovery and Reinvestment
               Act of 2009”

OAS-RA-11-20   Examination Report “People’s Equal Action       09-30-11
               and Community Effort, Inc. – Weatherization
               Assistance Program Funds Provided by the
               American Recovery and Reinvestment
               Act of 2009”




34   OFFICE OF INSPECTOR GENERAL
                                             SEMIANNUAL
                                             REPORT TO CONGRESS




           Recovery Act and Recovery Act-Related
                      Reports Issued
                           April 1, 2011 – September 30, 2011

Report                                                              Date                 Questioned
Number                               Title                         Issued     Savings      Costs

OAS-RA-11-21     Examination Report “Action for a Better          09-30-11                    $6,200
                 Community, Inc. - Weatherization Assistance
                 Program Funds Provided by the American
                 Recovery and Reinvestment Act of 2009”

OAS-RA-L-11-06   Department’s Management of Cloud                 04-01-11
                 Computing Services

OAS-RA-L-11-07   The Department of Energy’s American              04-15-11
                 Recovery and Reinvestment Act –
                 New Jersey State Energy Program

OAS-RA-L-11-08   Use of American Recovery and Reinvestment        05-19-11
                 Act of 2009 Funds on Solid Waste Project
                 Activities at the Department of Energy’s
                 Hanford Site

OAS-RA-L-11-09   Performance of Recovery Act Funds at the         07-07-11
                 Waste Isolation Pilot Plant

OAS-RA-L-11-10   Department of Energy’s Controls over             07-21-11
                 Recovery Act Spending at the Idaho
                 National Laboratory

OAS-RA-L-11-11   The Department of Energy’s Energy Efficiency     09-23-11
                 and Conservation Block Grant Program
                 Funded under the American Recovery and
                 Reinvestment Act for the State of Pennsylvania

OAS-RA-L-11-12   Implementation of the Recovery Act at the        09-29-11
                 Savannah River Site

OAS-RA-L-11-13   The 12 GeV CEBAF Upgrade Project at            09-30-11
                 Thomas Jefferson National Accelerator Facility

DOE/IG-0850      Verification of Lawrence Berkeley National       04-15-11
                 Laboratory’s Contract Worker’s Eligibility
                 to Work in the U.S.




                                                             APRIL 1, 2011 – SEPTEMBER 30, 2011   35
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                      Other Audit Reports Issued
                         April 1, 2011 – September 30, 2011

Report                                                           Date                  Questioned
Number                            Title                         Issued     Savings       Costs

IG-0851        Implementation of Beryllium Controls at         06-17-11
               Lawrence Livermore National Laboratory

IG-0854        The Department of Energy’s K-25 Building        07-13-11
               Decontamination and Decommissioning Project

IG-0855        Management Alert on Protective Force            09-27-11   $2,000,000
               Training Facility Utilization at the
               Pantex Plant

OAS-M-11-03    Security Planning for National Security         04-15-11
               Information Systems at Lawrence Livermore
               National Laboratory

OAS-L-11-04    Follow-up Audit of National Nuclear Security    06-08-11
               Administration’s Nuclear Explosive Safety
               Study Program

OAS-FS-11-06   Department of Energy Isotope Program’s          04-07-11
               Fiscal Year 2007 Financial Statement Audit

OAS-FS-11-07   Uranium Enrichment Decontamination and          06-14-11
               Decommissioning Fund’s Fiscal Year 2010
               Financial Statement Audit

OAS-V-11-09    Audit Coverage of Cost Allowability for         08-09-11
               Bechtel BWXT Idaho, LLC under Department
               of Energy Contract Number
               DE-AC07-99ID13727 during
               Fiscal Year 2010

OAS-SR-11-01   Special Inquiry on Office of Special Counsel    05-18-11
               Whistleblower Disclosure File No.
               DI-10-1231: Allegations Regarding
               Western Area Power Administration’s
               Desert Southwest Region




36   OFFICE OF INSPECTOR GENERAL
                                          SEMIANNUAL
                                          REPORT TO CONGRESS




                       Inspection Reports Issued
                        April 1, 2011 – September 30, 2011

Report                                                           Date                 Questioned
Number                            Title                         Issued     Savings      Costs

DOE/IG-0852   Alleged Violations of Executive Order            07-01-11
              12333, U.S. Intelligence Activities –
              Improper Retention and Dissemination of
              Information on U.S. Persons

INS-L-11-02   Implementation of Nuclear Weapons                07-08-11
              Quality Assurance Requirements at
              Los Alamos National Laboratory

DOE/IG-0853   Organizational Conflicts of Interest Program     07-13-11
              at Sandia National Laboratories

INS-L-11-03   Follow-up on Property Control at Idaho           09-07-11
              National Laboratory

INS-L-11-04   Suspect Parts for Sun Microsystems               09-16-11
              Processors at Sandia National Laboratory-
              New Mexico

INS-L-11-05   Fixed Monthly Living Expense Payments at         09-21-11
              the Lawrence Livermore National Laboratory




                                                          APRIL 1, 2011 – SEPTEMBER 30, 2011   37
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




                                Appendix 2 - Tables

                   Audit and Inspection Reports with
                Recommendations for Better Use of Funds
                                        April 1, 2011 – September 30, 2011
                                                (Dollars in Thousands)

            The following table shows the total number of audit and inspection reports and the
         total dollar value of the recommendations that funds be put to better use by management:

                                                                 Total              One Time             Recurring                 Total
                                                                Number               Savings              Savings                 Savings

  A. Those issued before the reporting period                        4          $611,098,083                  $0             $611,098,083
     for which no management decision has
     been made:*

  B. Those issued during the reporting period:                      25              $2,000,000                $0                 $2,000,000

             Subtotals (A + B)                                      29          $613,098,083                  $0             $613,098,083

  C. Those for which a management decision
     was made during the reporting period: *                        15            $10,100,426                 $0               $10,100,426

        (i) Agreed to by management:                                                             $0           $0                            $0

        (ii) Not agreed by management:                                            $10,100,426                 $0               $10,100,426

  D. Those for which a management decision                          11                           $0           $0                            $0
     is not required:

  E. Those for which no management decision                          3          $602,997,657                  $0             $602,997,657
     has been made at the end of the
     reporting period: *

  Definition of Terms Used in the Table
  Funds put to better use: Funds that could be used more efficiently by implementing recommended actions.
  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include
  unsupported costs.
  Management decision: Management’s evaluation of the finding and recommendations included in the audit
  report and the issuance of a final decision by management concerning its response.

*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting
determination by the Contracting Officer.




  38      OFFICE OF INSPECTOR GENERAL
                                                             SEMIANNUAL
                                                             REPORT TO CONGRESS




 Audit and Inspection Reports with Questioned Costs
                                        April 1, 2011 – September 30, 2011
                                                (Dollars in Thousands)
              The following table shows the total number of audit and inspection reports and the
                            total dollar value of questioned and unsupported costs.

                                                                        Total               Questioned                       Unsupported
                                                                       Number                 Costs                             Costs

  A. Those issued before the reporting period for                           0              $243,967,062                        $196,000
     which no management decision has
     been made:*

  B. Those issued during the reporting period:                              7                  $1,460,374                      $245,697

       Subtotals (A + B)                                                    7              $245,427,436                        $441,697

  C. Those for which a management decision was                              6                $30,381,251                       $245,697
     made during the reporting period:*

       (i) Value of disallowed costs:                                                          $8,058,075                              $0

       (ii) Value of costs not disallowed:                                                   $22,110,296                               $0

  D. Those for which a management decision is                               1                  $1,200,000                   $1,200,000
     not required:

  E. Those for which no management decision                                  0             $215,259,065                        $441,697
     has been made at the end of the
     reporting period:*

  Definition of Terms Used in the Table
  Questioned costs: A cost that is (1) unnecessary; (2) unreasonable; (3) unsupported; (4) or an alleged

  violation of law, regulation, contract, etc.

  Unsupported costs: A cost that is not supported by adequate documentation. Questioned costs include

  unsupported costs.

  Management decision: Management’s evaluation of the finding and recommendations included in the

  audit and inspection report and the issuance of a final decision by management concerning its response.


*The figures for dollar items included sums for which management decisions on the savings were deferred and, in some cases, awaiting
determination by the Contracting Officer.




                                                                                  APRIL 1, 2011 – SEPTEMBER 30, 2011                        39
                                              SEMIANNUAL
                                              REPORT TO CONGRESS




Reports Lacking                                          Prior Significant
Management Decision                                      Recommendations
                                                         Not Implemented
DOE’s Departmental Audit Report Tracking
System (DARTS) tracks audit reports and
                                                         As of September 30, 2011, closure actions on
management decisions. Its purpose is to ensure
                                                         recommendations in 44 OIG reports had not
that recommendations and corrective actions
                                                         been fully implemented within 12 months
indicated by audit agencies and agreed to by
                                                         from the date of report issuance. The OIG is
management are addressed as efficiently and
                                                         committed to working with management to
expeditiously as possible. Listed below are the
                                                         expeditiously address the management decision
audit reports over 6 months old that were issued
                                                         and corrective action process, recognizing that
before the beginning of the reporting period and
                                                         certain initiatives will require long-term, sustained,
for which no management decision had been made
                                                         and concerted efforts. The Department has closed
by the end of the reporting period. The reason a
                                                         113 recommendations in the past 6 months.
management decision had not been made and the
                                                         Management updates DARTS on a quarterly
estimated date for achieving management decision
                                                         basis, most recently in September 30, 2011.
is described below.
                                                         Information on the status of any report
                                                         recommendation can be obtained through the
   Management Audit
                                                         OIG’s Office of Audits and Inspections.
   IG-0831: The Office of Science’s
   Management of Information Technology
   Resources, November 20, 2009 –
   The finalization of the management decision
   is pending the resolution of complex cost
   allocation issues and coordination with senior
   Departmental leadership. This should
   occur by March 31, 2012.

   IG-0835: The Department of Energy’s
   Opportunity for Energy Savings Through
   Improved Management of Facility Lighting,
   July 1, 2010 – The Department of Energy, in
   support of the Department's implementation of
   E.O. 13514, "Federal Leadership in
   Environmental, Energy, and Economic
   Performance", established a Strategic
   Sustainability Office. The finalization of the
   management decision is pending coordination
   with the newly established office; a final
   management decision is expected by
   December 31, 2011.




 40    OFFICE OF INSPECTOR GENERAL
                                                              SEMIANNUAL
                                                              REPORT TO CONGRESS




                         Summary of Investigative Activities
                                        April 1, 2011 – September 30, 2011
  Cases open as of April 1, 2011                                                                                                       244

  Cases opened during period                                                                                                            79

  Cases closed during period                                                                                                            70

  Multi-Agency Task Force Cases Opened                                                                                                  28

  Qui Tam investigations opened                                                                                                           2

          Total Open Qui Tam investigations as of September 30, 2011                                                                    14

  Cases currently open as of September 30, 2011                                                                                        253

  IMPACT OF INVESTIGATIONS:

          Administrative discipline and other management actions                                                                        67

          Recommendations to management for positive change and other actions                                                           49

          Suspensions/Debarments                                                                                                        42

          Accepted for prosecution*                                                                                                     43

          Indictments                                                                                                                   16

          Criminal convictions                                                                                                          28

          Pre-trial diversions                                                                                                            1

          Civil actions                                                                                                                 24

  TOTAL DOLLAR IMPACT**
  (Fines, settlements, recoveries)                                                                                                  $72,235,554

* Some of the investigations accepted during the 6-month period were referred for prosecution during a previous reporting period.
** Some of the money collected was the result of task force investigations involving multiple agencies.




                                                                                   APRIL 1, 2011 – SEPTEMBER 30, 2011                         41
                                                SEMIANNUAL
                                                REPORT TO CONGRESS




          Summary of Investigative Activities (con’t)
                                             HOTLINE ACTIVITY
                              April 1, 2011 – September 30, 2011
                                                  HOTLINE ACTIVITY

Total Hotline calls, emails, letters, and other complaints (contacts)                             3,712

       • Hotline contacts resolved immediately/ redirected/no further action                      3,387

       • Hotline contacts predicated for evaluation                                                325

       • Hotline predications open at the end of previous reporting period (03/31/11)               17

Total Hotline predications processed this reporting period                                         342

       • Hotline predications transferred to OIG Program Office                                     57

       • Hotline predications referred to Department management or other entity for
         information/action                                                                         95

       • Hotline predications closed based upon preliminary OIG activity and review                131

       • Hotline predications awaiting referral                                                     43

       • Hotline predications open at the end of the reporting period                               16



                   Summary of
 Recovery Act Section 1553 Retaliation Complaints
                              April 1, 2011 – September 30, 2011

Recovery Act Whistleblower Retaliation Complaints received                                            4

Complaints carried over from prior period(s)                                                          9

Disposition of Whistleblower Retaliation Complaints:

       • Reports issued                                                                               1

       • Complaints Dismissed:

             - Elected another forum                                                                  4

             - Upon receipt of Complaint, determined not related to covered funds                     2

             - After investigation, determined not related to covered funds after investigation       1

       • Complaints Withdrawn                                                                         1

Recovery Act Complaints that received extensions                                                      2




42    OFFICE OF INSPECTOR GENERAL
                                                            SEMIANNUAL
                                                           REPORT TO CONGRESS




                                                      Peer Reviews
                                       April 1, 2011 – September 30, 2011
                          Results of Reviews Conducted by DOE/OIG:
                                                Office of Audits and Inspections
   Date of Recent
  Peer Reviews (s)                           Reviewed OIG                       Outstanding Recommendations

          N/A



                          Results of Reviews Conducted by DOE/OIG:
                                                       Office of Investigations
   Date of Recent
  Peer Reviews (s)                           Reviewed OIG                       Outstanding Recommendations

           N/A
There are no outstanding recommendations from any previous peer reviews.



                        Results of Reviews Conducted by Other OIGs:
                                                      Office of Audits Services
   Date of                                                Requirements
  Recent Peer                 Reviewing                    For Review                      Outstanding
  Reviews (s)                    OIG                       Frequency                   Recommendations/Link

       N/A



                        Results of Reviews Conducted by Other OIGs:
                                                       Office of Investigations
   Date of                                                Requirements
  Recent Peer                 Reviewing                    For Review                      Outstanding
  Reviews (s)                    OIG                       Frequency                   Recommendations/Link

 09/28/2011                  Environmental                  At least once                       N/A
                           Protection Agency                every 3 years




                                                                            APRIL 1, 2011 – SEPTEMBER 30, 2011   43
                                      SEMIANNUAL
                                      REPORT TO CONGRESS




Feedback Sheet
The contents of the September 2011 Semiannual Report to Congress comply with the
requirements of the Inspector General Act of 1978, as amended. If you have any suggestions
for making the report more responsive, please complete this feedback sheet and return it to:

      United States Department of Energy

      Office of Inspector General (IG-10)

      1000 Independence Avenue, SW

      Washington, D.C. 20585


      ATTN: Michelle Anderson




Name: ____________________________________________________________________________


Daytime Telephone Number: _____________________________________________________


Comments/Suggestions/Feedback:




For media inquiries, please dial (202) 253-2162 for assistance.


 44   OFFICE OF INSPECTOR GENERAL
This page intentionally left blank.
  U.S. Department of Energy
           Office of Inspector General

    Call the HOTLINE if you suspect:
■ Fraud,
■ Waste,
■ Abuse,
■ Mismanagement by a DOE Employee, Contractor, or Grant
  Recipient; or have a
■ Whistleblower Retaliation Complaint related to American
  Reinvestment and Recovery Act funds



                   Call
     1-800-541-1625 or (202) 586-4073

  Additional information on the OIG and reports can be found at
                      www.ig.energy.gov




                 U.S. Department of Energy
                 1000 Independence Avenue, S. W.
                     Washington, DC 20585
SAR COVERS 1 AND 4.qxd   10/27/11   9:43 AM   Page 2
SAR COVERS 1 AND 4.qxd   10/27/11   9:43 AM   Page 1
